                                                                        Office               Hotline

  Office of Inspector General                                           202.692.2900
                                                                        peacecorps.gov/OIG
                                                                        OIG Reports
                                                                                             202.692.2915 800.233.5874
                                                                                             Online Contact Form
                                                                                             OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director

From:          Kathy A. Buller, Inspector General

Subject:       Management Advisory Report: $10,000 Theft at Peace Corps/Sierra Leone

Date:          March 14, 2013

The purpose of this report is to bring to your attention a theft of over $10,000 in cash at Peace
Corps/Sierra Leone due to poor oversight by post management, which allowed the post’s imprest
funds to be misused for at least two years. Our office will also be issuing a report of investigation
regarding this incident.

In late January 2013 the PC/Sierra Leone country director (CD) reported the Imprest fund theft
to the Africa region acting regional director. The CD discovered the theft when requesting a
travel advance. The cashier could not fund the advance because there was not have enough cash
available in the imprest fund. The CD and director of management and operations (DMO)
promptly conducted an imprest fund verification revealing that the cashier was short
approximately $10,884 ($1,129 + 9,755 U.S. Dollar Equivalent [USDE]). Upon further
questioning the cashier stated that over the past year she had been withdrawing funds for
personal use, essentially providing herself with small loans using agency funds, and returning the
funds when needed. This misuse of agency funds may have occurred as early as the cashier’s
date of hire in 2010.

Background
Posts use imprest funds to pay for small dollar miscellaneous supplies, trainee allowances, host
family payments, and in-country travel advances. The imprest fund is inherently vulnerable to
theft and misuse and must be monitored closely by the CD and DMO. The DMO is responsible
for approving all imprest fund transactions made by the cashier. In addition, the DMO is required
to conduct unannounced imprest fund verifications each month to ensure that all funds are
accounted for. The imprest fund verification is one of the most important controls to prevent
theft and abuse of the post’s cash.

In July 2011, independent auditors visited PC/Sierra Leone as part of the agency’s annual
financial statement audit. The auditors noted several weaknesses in the imprest fund including
the DMO and cashier inappropriately storing excess cash identified during imprest fund
verifications and using it to cover up fund shortages in later months. By storing excess cash any
irregularity in the imprest fund verifications would be difficult to detect. In addition, auditors
reported that the DMO and cashier were not counting individual bills during the monthly
verifications. These findings were reported to the DMO, CD, and management at headquarters.




                                                 1
Daily Reconciliations
Peace Corps Manual section (MS) 760 requires cashiers to perform daily reconciliations of
imprest funds. The cashier’s daily reconciliations over the last year demonstrated a pattern of
out-of-balance imprest funds, without regard for reconciling and reporting the discrepancies. The
Department of State Cashier User Guide states that, “If an “unexplained” out-of-balance
condition is discovered by the cashier during a normal daily reconciliation of funds and records;
the cashier notifies his/her supervisor and acknowledges the difference in writing.” We did not
find evidence that the cashier reported or explained the out-of-balance daily cashier
reconciliations nor that the DMO was spot checking the daily reconciliations. As such, the daily
reconciliations were not an effective self-monitoring mechanism and the DMO was not verifying
that they were complete. Had the DMO checked the daily reconciliations and followed-up on
discrepancies, he may have been able to identify the issue with the cashier withdrawing funds for
personal use.

Monthly Verifications
The monthly verifications conducted by the CD and DMO were predictable and routinely
scheduled for the end of the month, which did not allow the fraud to be detected (see Table 1).
The Overseas Financial Management Handbook (OFMH) states, “The monthly and quarterly
verifications must be unannounced and performed at different times each month, e.g., they
should not be done on the last day of every month.” The routine verifications allowed the cashier
to misuse the funds for most of the month before returning the cash to anticipated levels in
anticipation of the monthly verification.

                           Table 1. Imprest Fund Verification Dates
                Date of Verification    Verifier       Date of Verification   Verifier
                January 25, 2012        CD             July 26, 2012          DMO
                February 23, 2012       DMO            August 30, 2012        DMO
                March 28, 2012          DMO            September 26, 2012     CD
                April 30, 2012          CD             October 23, 2012       DMO
                May 30, 2012            DMO            November 28, 2012      DMO
                June 25, 2012           FA             December 28, 2012      CD

In addition, the CD said that on two occasions (September and December 2012) when she tried
to conduct a monthly verification the cashier could not be found. The CD conducted the
verification within the next few days; however, the cashier may have used the additional time to
correct irregularities in the imprest fund.

In addition, the monthly verifications were incomplete. In 2011, the independent auditors
reported that the DMO did not count all of the cash during the monthly verification. Instead, the
DMO visually checked the stacks of bills. The post used the most trusted bank in Sierra Leone
and the CD and DMO believed that the bank’s totals on the plastic sleeves around the bills were
accurate. During our site visit in 2013, we found that the cashier had a stack of new plastic
sleeves in her drawer and a bag full of old bank labels listing different amounts. This allowed her
to easily place lower denominations or fake bills into the stack, reseal it in a new bag, and pass it
off as containing more money than it did.




                                                   2
              Figure 1. Unused Bank Sleeves and Tags in the Cashier’s Drawer




Oversight and Leadership
The DMO’s failure to provide adequate oversight of the cashiering operations allowed the
cashier to use imprest funds for personal gain without being caught. The DMO failed to correct
the deficiencies identified during the 2011 financial statement audit. These routine and
incomplete imprest fund verifications enabled the cashier to commit fraud with little risk of
detection or punishment.

The DMO said that the cashier had taken approximately $1,000 USDE from the imprest fund in
September 2012 and that he gave her one week to repay it. The amount was returned by the time
of the imprest fund verification and was never properly reported to headquarters and not
adequately documented. MS 760 requires posts to report losses to the Office of the Inspector
General, personnel in the Office of Global Accounts Payable, and the U.S. disbursing officer.
The DMO should have reported the incident to ensure the issue was properly resolved. In
addition, fully documenting deficiencies and irregularities is essential for employee management
and to provide historical information. Furthermore, there is no documentary evidence that the
cashier was disciplined for her actions. Instead, the DMO provided a positive recommendation
of the cashier to the U.S. Embassy after having found that the cashier had taken approximately
$1,000 USDE.

While the CD is ultimately responsible for the overall management of the imprest fund; through
delegation of authority the DMO is the cashier’s supervisor and must carry out the
responsibilities of overseeing imprest fund management. MS 760 states that, “. . . supervisor may
be disciplined for mismanagement of the cashier advance.” According to the Department of
State’s Cashier User Guide:

      The verification is to ensure that the cashier is in compliance with Treasury and State Department
      regulations and that effective internal controls have been established by the post to prevent U.S. Government
      (USG) funds from being stolen or misused. Supervisory personnel failing to carry out the basic
      responsibility to assure protection of U.S. funds from waste, fraud or misuse may be held personally liable
      for the repayment of the loss and/or disciplinary action by the Department as prescribed in 3 FAM 4110.




                                                       3
We recommend:

      1. That the Africa region take appropriate administrative action of the management
         personnel at Peace Corps/Sierra Leone responsible for the oversight and management of
         imprest fund operations.

      2. That the Office of the Global Accounts Payable instruct the overseas cashier liaison to
         monitor the date that posts’ submit monthly imprest fund verifications to identify and
         report to the regions the posts that have repeated issues and irregularities, to include posts
         that routinely conduct the verification around the same date each month.

      3. That the post conduct complete monthly imprest fund reconciliations, including counting
         every bill, on varying days of the month.


cc:      Carlos Torres, Acting Associate Director for Global Operations
         Joseph Hepp, Chief Financial Officer
         Daljit Bains, Chief Compliance Officer
         Bill Rubin, General Counsel
         Carl Sosebee, Senior Advisor to the Acting Director
         Dick Day, Regional Director, Africa
         Paul Shea, Director of Global Accounts Payable




                                                    4
